Legal Printers,

LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinter s. com

*

September 28, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
Re:

Philip Jay Fetner v. Hotel Street Capital LLC, et al.

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a Writ
of Certiorari referenced above contains 4,722 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely^
")

Jack Suber, Esq.
Principal

LISA KAY NICHOLSON
,
Notary Public
| State of Maryland
Montgomery County
My commission exp. October 12,2022

Sworn and subscribed before me this 28th day of September 2020.

